No. 19-251

In the Supreme Court of the United States
__________________
AMERICANS FOR PROSPERITY FOUNDATION,
Petitioner,
v.
XAVIER BECERRA, ATTORNEY GENERAL OF CALIFORNIA,
Respondent.
__________________
On Petition for Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit

__________________
Brief for the States of Arizona, Alabama,
Arkansas, Georgia, Indiana, Kansas,
Louisiana, Oklahoma, South Carolina,
Tennessee, Texas, Utah, and West Virginia, and
Governor Phil Bryant of the State of Mississippi,
as Amici Curiae in Support of Petitioner

__________________
MARK BRNOVICH
Attorney General

ORAMEL H. (O.H.) SKINNER
Solicitor General
RUSTY D. CRANDELL
Deputy Solicitor General
Counsel of Record
OFFICE OF THE ARIZONA
ATTORNEY GENERAL
2005 N. Central Ave.
Phoenix, AZ 85004
Rusty.Crandell@azag.gov
(602) 542-8540
Counsel for Amici Curiae
(Additional counsel listed at end of brief)

Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . ii
INTEREST OF AMICI CURIAE . . . . . . . . . . . . . . . . 1
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
I. Upfront Disclosure Of Donors To The State Is
Not Substantially Related To The California
Attorney General’s Legitimate Interests. . . . . . . 5
A. Forty-Seven States And The District of
Columbia Effectively Regulate Charities
Without Preemptive Donor Disclosures. . . . . 5
B. Required Nonpublic Disclosure Creates The
Potential For Public Disclosure. . . . . . . . . . . . 8
C. California Impairs The Ability Of Other
States To Protect Their Citizens. . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

ii
TABLE OF AUTHORITIES
CASES
Buckley v. Valeo,
424 U.S. 1 (1976). . . . . . . . . . . . . . . . . . . . . . . . . . 1
Gibson v. Florida Legislative Investigation Comm.,
372 U.S. 539 (1963). . . . . . . . . . . . . . . . . . . . . . . . 5
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961). . . . . . . . . . . . . . . . . . . . . . . . 2
McCutcheon v. Fed. Election Comm’n,
572 U.S. 185 (2014). . . . . . . . . . . . . . . . . . . . . 9, 10
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958). . . . . . . . . . . . . . . . . . . . 1, 3, 5
Thomas More Law Center v. Becerra,
No. 19-255 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
OTHER AUTHORITIES
Hawaii Charity Financial Report Guide (Jul.
2019), https://ag.hawaii.gov/tax/files/2018/06/H
awaii-Charity-Annual-Transmittal-Guide7.10.19.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
N.Y.
Form
CHAR500
(2018),
https://www.charitiesnys.com/pdfs/
CHAR500_2018.pdf . . . . . . . . . . . . . . . . . . . . . . . 6
Pl.’s Br., Americans for Prosperity Foundation v.
Becerra, 903 F.3d 1000 (9th Cir. 2018) (No. 1655727) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Sup. Ct. R. 37.2(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

1
INTEREST OF AMICI CURIAE
Amici curiae, the States of Arizona, Alabama,
Arkansas, Georgia, Indiana, Kansas, Louisiana,
Oklahoma, South Carolina, Tennessee, Texas, Utah,
and West Virginia, and Governor Phil Bryant of the
State of Mississippi (“Amici States”) file this brief in
support of Petitioner Americans for Prosperity
Foundation (the “Foundation”). 1
Like the
overwhelming majority of States, Amici States regulate
non-profit organizations without requiring them to
report the names of their donors. Amici States submit
this brief in support of the Foundation because they are
committed both to detecting unscrupulous non-profit
activity and to protecting citizens’ First Amendment
right of free association. Forty-seven States and the
District of Columbia accomplish these twin goals
without requiring non-profit organizations to disclose
the identities of their donors. This majority approach
effectively prevents the evils of sham charities without
jeopardizing the fundamental right of free association.
SUMMARY OF ARGUMENT
This Court has long recognized that privacy in
group association is “indispensable to preservation of
freedom of association.” NAACP v. Alabama ex rel.
Patterson, 357 U.S. 449, 462 (1958). Interference with
this First Amendment liberty is subject to “exacting
scrutiny.” Buckley v. Valeo, 424 U.S. 1, 64 (1976). As
part of this test, government demands for member or
1

Counsel for Amici States provided timely notice of the intent to
file this brief to all parties’ counsel of record. See Sup. Ct. R.
37.2(a).

2
donor lists of groups engaged in advocacy must be
“narrowly drawn.” Louisiana ex rel. Gremillion v.
NAACP, 366 U.S. 293, 297 (1961). As Amici States
know from experience, California’s blanket policy of
compelled disclosure is not necessary to the work of
policing non-profit organizations. It therefore cannot
survive scrutiny under the First Amendment, and this
Court should correct the panel’s contrary conclusion.
The district court correctly ruled that, as applied,
the California Attorney General unconstitutionally
requires the Foundation to submit its unredacted
Schedule B. App. 56a. By requiring the Foundation to
disclose the identities of its major donors without first
establishing any particularized suspicion of
wrongdoing, the California Attorney General chilled
the associational rights of the Foundation’s members.
App. 54a–55a. The chilling effect is intuitive, but the
lower court bolstered its holding with factual findings
specific to the organization in question. As the court
explained, “ample evidence” showed that the
Foundation’s “employees, supporters and donors”
severally “face public threats, harassment,
intimidation, and retaliation once their support for and
affiliation with the organization becomes publicly
known.” App. 49a. The district court further found
that the “Schedule B submission requirement
demonstrably played no role in advancing the Attorney
General’s law enforcement goals . . . .” App. 47a.
A Ninth Circuit panel reversed in an opinion that
brushed past the district court’s factual findings and
ignored the experience of virtually every other State in
the Union. The panel held that, even assuming the

3
Foundation’s donors “would face substantial
harassment if Schedule B information became public,”
the mandatory disclosure requirement was
“substantially related to an important state interest in
policing charitable fraud.” App. 7a. In reaching this
conclusion, the panel ruled that California’s blanket,
up-front collection of unredacted Schedule Bs advanced
the State’s law enforcement interest in combatting
fraud—in direct contradiction to the district court’s
findings on that point. Op. 17a–23a. The panel also
held that despite a record of actual disclosure beyond
the Attorney General’s Office, there was only “slight
risk of public disclosure” going forward. Op. 34a–39a.
Topping things off, the panel refused to even consider
whether the compelled disclosure was narrowly
tailored. App. 22a (“[N]arrow tailoring and leastrestrictive-means tests . . . do not apply here.”). The
Ninth Circuit declined to hear this case en banc,
despite a five-judge dissent from the denial which
criticized the panel’s appellate fact finding and refusal
to follow this Court’s decision in NAACP v. Alabama.
App. 77a–97a.
The Ninth Circuit erred in holding that the
California Attorney General could compel the
Foundation to identify its donors without any suspicion
of wrongdoing.2

2

For the same reasons, the panel also errored in holding—in the
same decision—that the Thomas More Law Center could be
compelled to disclose its Schedule B, which error is the subject of
a companion certiorari petition in Thomas More Law Center v.
Becerra, No. 19-255.

4
First, the link between the required disclosure of
donor information and the California Attorney
General’s asserted governmental interest is tenuous.
Forty-seven States and the District of Columbia have
identical governmental interests to those asserted by
California, yet they do not require the preemptive
disclosure of donor information.
Second, not only do these jurisdictions ably protect
their populations from fraud, but they also avoid the
risk of unintentional disclosure to the public at large.
Presumably even California would agree that avoiding
public dissemination of membership rosters is an
important state interest. But, as the record in this case
proves, the potential for such disclosure is high. As a
result, the overwhelming majority of States serve their
common interest far better by declining to collect donor
information from organizations that have not given
them a reason to suspect misconduct.
Finally, California’s departure from this consensus
undermines the ability of other States to protect the
First Amendment liberties of their citizens. Requiring
a Schedule B each year from every one of the 60,000+
charitable organizations seeking renewal in California
exposes the identity of vast numbers of citizens across
the nation. In so doing, California’s outlier approach
jeopardizes the associational protections in nearly
every other State.

5
ARGUMENT
I. Upfront Disclosure Of Donors To The State Is
Not Substantially Related To The California
Attorney General’s Legitimate Interests.
When disclosure of membership or donor lists would
result “in reprisals against and hostility to” members,
state-required disclosure is permitted only if (1) the
state has a sufficiently compelling interest for
requiring disclosure, (2) the means are substantially
related to that interest, and (3) the means are narrowly
tailored. NAACP v. Alabama, 357 U.S. at 462–63;
Gremillion, 366 U.S. at 296; Gibson v. Florida
Legislative Investigation Comm., 372 U.S. 539, 546
(1963). The California Attorney General’s interest in
regulating charitable organizations does not justify the
compelled disclosure of the Foundation’s donor
information. This disclosure is unnecessary, exposes
donors to retaliation, and jeopardizes the First
Amendment rights of citizens across the nation.
A. Forty-Seven States And The District of
Columbia Effectively Regulate Charities
Without Preemptive Donor Disclosures.
The district court found that the California Attorney
General failed to prove that his office “actually needs
Schedule B forms to effectively conduct its
investigations.” App. 44a. To the contrary, the
California Attorney General “virtually never” uses
Schedule Bs, and even when the office does so, it could
easily obtain the relevant information through a more
targeted approach. App. 44a–47a, 55a. Indeed, the
record lacks even one instance in which a generalized,

6
pre-investigative collection of a Schedule B aided the
California Attorney General’s enforcement efforts.
App. 47a. These findings are consistent with the law
and practice in virtually every other State.
The blanket and preemptive disclosure of significant
donors is not appropriately correlated to California’s
valid law enforcement interests. All 50 state attorneys
general possess a law enforcement interest in
preventing non-profits from defrauding their citizens.
Yet, besides California, only two other States—Hawaii
and New York—require disclosure of the unredacted
Schedule Bs containing donors’ names and addresses.
See Pl.’s Br., at ADD-35 to ADD-43, Americans for
Prosperity Foundation v. Becerra, 903 F.3d 1000 (9th
Cir. 2018) (No. 16-55727) (50-State Survey on Schedule
B Submission Requirements in Connection with
Charitable Registration Filings); see also Hawaii
Charity Financial Report Guide (Jul. 2019),
https://ag.hawaii.gov/tax/files/2018/06/Hawaii-CharityAnnual-Transmittal-Guide-7.10.19.pdf; N.Y. Form
CHAR500 (2018), https://www.charitiesnys.com/pdfs/
CHAR500_2018.pdf. Not only do 47 States and the
District of Columbia not require annual submission of
unredacted Schedule Bs, but 11 of those States do not
require any registration to raise funds in their
jurisdictions. In 2013, Arizona joined Delaware, Idaho,
Indiana, Iowa, Montana, Nebraska, South Dakota,
Texas, Vermont, and Wyoming in adopting a general
non-registration standard.
Amici States’ lack of donor disclosure requirements
has not prevented them from exercising oversight of
non-profits that solicit donations within their

7
jurisdictions and investigating, prosecuting, and
deterring fraudulent activities.
For instance, all 50 States joined in a civil
enforcement action in Arizona against four sham
cancer charities and the individuals who ran them.
Collectively the sham non-profits raised more than
$187 million from donors across the United States.
The California Attorney General claimed at trial that
this very case was one where the Schedule B had been
part of the investigation. The evidence tells a different
story. The Schedule B used by a California Attorney
General’s office attorney was obtained by a targeted
subpoena rather than during the generally applicable
annual disclosure filing. ER1756. Indeed, the fact that
Arizona does not even require charities to register
before soliciting donations within the State proved no
obstacle to Arizona’s vigorous pursuit of this matter.
Other States’ prosecution of fraudulent solicitors is
important because it proves that California’s donor
disclosure requirement is not narrowly tailored to a
compelling state interest. This is consistent with the
district court’s finding that, even assuming a
“sufficiently important governmental interest,” “the
testimony of the Attorney General’s own attorneys”
indicated that there was a more narrow way to achieve
that interest. App. 47a. The record demonstrates that
requiring submission of unredacted Schedule Bs does
nothing to increase the State’s investigative efficiency.
Id. The disclosure rule is all cost with little, if any,
benefit.

8
In reversing the district court’s holding, the panel
disregarded the record below and implicitly concluded
that the 48 similarly situated jurisdictions not
mandating disclosure of donor information either lack
California’s law enforcement interests or inadequately
regulate non-profit organizations. To the contrary,
Amici States share California’s law enforcement
concerns and diligently regulate non-profits. They
have simply pursued their law enforcement interests
through traditional methods like compliance audits and
subpoenaing donor information after developing a
particularized suspicion of wrongdoing. These methods
are available to California as well, and widespread
experience proves that they work.
B. Required Nonpublic Disclosure Creates
The Potential For Public Disclosure.
California’s dragnet disclosure requirement puts
membership lists at risk of public disclosure, thereby
chilling associational rights. By collecting donor
information in advance of any law enforcement need,
the California Attorney General’s Office creates a risk
of unintentional disclosure to the public. Ironically,
California highlighted this potential difficulty by
posting more than a thousand unredacted Schedule Bs
online, thereby publicizing the names and addresses of
thousands of donors. App. 51a–52a. Separately,
California’s registry made more than 350,000
confidential documents—including Schedule
Bs—accessible to anyone who is clever with a web
browser. App. 92a. The district court was clear-voiced
in finding that “[t]he pervasive, recurring pattern of
uncontained Schedule B disclosures—a pattern that

9
has persisted even during this trial—is irreconcilable
with the Attorney General’s assurances and
contentions as to the confidentiality of Schedule Bs
collected by the Registry.” App. 52a.
The panel reached a different conclusion. Despite
acknowledging that “in the past, the [California]
Attorney General’s office has not maintained Schedule
B information as securely as it should have,” App. 35a,
the panel concluded that there is now no “significant
risk of public disclosure,” App. 37a.
While not all States that collect donors’ names and
addresses from unredacted Schedule Bs will be as
careless with that information as California has been,
the potential for a breach of security always exists.
This danger helps explain why the overwhelming
majority of States pursue their law enforcement
interest without demanding that every charity
surrender a list of this sensitive information. A State
cannot inadvertently disclose the identity of a donor
who wishes to remain anonymous if the State never
has that information in the first place.
C. California Impairs The Ability Of Other
States To Protect Their Citizens.
“In the First Amendment context, fit matters.”
McCutcheon v. Fed. Election Comm’n, 572 U.S. 185,
218 (2014) (plurality opinion). But, every year,
California requires over 60,000 charitable
organizations to turn over their Schedule Bs containing
highly sensitive donor information. App. 51a. The
burdens of this approach are not confined just to
California, but are felt across the nation.

10
As set forth above, 48 jurisdictions in the United
States respect the associational rights of their citizens
by not requiring disclosure of Schedule Bs without a
particularized need. But, if a resident in any one of
these jurisdictions makes a donation to a charitable
organization that registers in California, their identity
is put at risk. California thereby undermines the First
Amendment protections provided in nearly every other
State. This is just one more reason why California’s
infringement on associational rights is grossly
disproportionate to the interest served.
See
McCutcheon, 572 U.S. at 218 (narrow tailoring requires
a fit that is “‘in proportion to the interest served’”). It
also underscores the urgent need for this Court to
grant review so that California’s outlier approach does
not undermine the First Amendment protections
provided in 48 jurisdictions across the United States.
CONCLUSION
The California disclosure requirement is
unnecessary, exposes donors to retaliation, and
jeopardizes the First Amendment rights of citizens
across the nation. The Court should grant the Petition
for a Writ of Certiorari.

11
Respectfully submitted.
MARK BRNOVICH
Attorney General
ORAMEL H. (O.H.) SKINNER
Solicitor General
RUSTY D. CRANDELL
Deputy Solicitor General
Counsel of Record
OFFICE OF THE ARIZONA
ATTORNEY GENERAL
2005 N. Central Ave.
Phoenix, AZ 85004
Rusty.Crandell@azag.gov
(602) 542-8540
Counsel for Amici Curiae
SEPTEMBER 25, 2019

12
STEVE MARSHALL
Attorney General of
Alabama

MIKE HUNTER
Attorney General of
Oklahoma

LESLIE RUTLEDGE
Attorney General of
Arkansas

ALAN WILSON
Attorney General of
South Carolina

CHRISTOPHER M. CARR
Attorney General of
Georgia

HERBERT H. SLATERY III
Attorney General and
Reporter of Tennessee

CURTIS T. HILL, JR.
Attorney General of
Indiana

KEN PAXTON
Attorney General of
Texas

DEREK SCHMIDT
Attorney General of
Kansas

SEAN D. REYES
Attorney General of
Utah

JEFF LANDRY
Attorney General of
Louisiana

PATRICK MORRISEY
Attorney General of
West Virginia

JOSEPH SCLAFINI
Counsel for the
Governor of
Mississippi

